PRICING SCHEDULE
06/30/21
03/31/21.
This is an example of terms that were available to recent applicants as of 
Pricing Schedule is part of the Cardmember Agreement.

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

From 1.%
11.99% to 2.%.
22.99%. This APR will vary with the market based on the Prime Rate.1

APR for Balance Transfers

11.99% to 2.%.
22.99%. This APR will vary with the market based on the Prime Rate.1
From 1.%

APR for Cash Advances

24.99%.
2.%. This APR will vary with the market based on the Prime Rate.1

Penalty APR and When It Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing period (at least 23 days for billing periods that begin in February). We will
not charge you any interest on purchases if you pay your entire balance by the due date each month. We will begin charging interest on
transaction
posted to your Account.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

Fees
Annual Fee

None

Balance Transfer Fee

% of the amount of each transfer.

Cash Advance Fee

Either $10 or 5% of the amount of each cash advance, whichever is greater.

Late Fee

None

Returned Payment Fee

Up to $40.
$3.

$3.
$40.

How We Will Calculate Your Balance: We will use a method called “daily balance (including current transactions)”. See the Cardmember Agreement for details.
The purchase and balance transfer APR is equal to the Prime Rate plus a margin from 8.74% to 19.74%.

1

The Cash Advance APR is equal to the Prime Rate plus a margin of 21.74%.

©2021 Discover Bank, Member FDIC
ª%JTDPWFS#BOL
.FNCFS
CMAPRDI063021
CMAPRDI033121
'%*$$."13%*

-1-1-

CARDMEMBER AGREEMENT
Thank you for choosing Discover® card. This Agreement explains the current terms and conditions of your Account. The enclosed Pricing Schedule is part of this Agreement. Please read this Agreement, including
the Pricing Schedule, carefully. Keep them for your records. Contact us if you have any questions. We have included a “Definitions” section for your reference on page 3.

ACCEPTANCE OF AGREEMENT
You accept this Agreement if you do not cancel your Account within 30 days after receiving a Card. You also accept this Agreement if you or an Authorized User use the
Account. You may, however, reject the “Arbitration of Disputes” section as explained in that section.

CHANGES TO YOUR AGREEMENT
The rates, fees and terms of this Agreement may change from time to time. We may add or delete any term to this Agreement. If required by law, we will give you advance
written notice of the change(s) and a right to reject the change(s). We will not charge any fee or interest charge prohibited by law.

USING YOUR ACCOUNT
Permitted Uses

You may use your Account for Purchases, Balance Transfers and Cash Advances. You may not use it for illegal transactions.

Authorized Users

You may request additional Cards for Authorized Users to make transactions on your Account. You must notify us if you wish to cancel the authority of an Authorized User
to use your Account. You are responsible for all charges made by your Authorized Users.

Joint Accounts

If your Account is a joint Account
• each of you agrees to be liable individually and jointly for the entire amount owed on the Account; and
• any notice we mail to an address provided by either of you for the Account will serve as notice to both of you.

Checks

If we provide you with Checks, we will tell you whether we will treat the Check as a Purchase, Balance Transfer or Cash Advance. You may not use these Checks to pay any
amount you owe us.

Credit Authorizations

We may not authorize a transaction for security or other reasons. We will not be liable to you if we decline to authorize a transaction or if anyone refuses your Card, Check
or Account number.

Credit Lines

We will tell you what your Account credit line is. You must keep your Account
balance below your Account credit line. If you do not, we may request immediate
payment of the amount by which you exceed it. We may establish a lower credit line

for Cash Advances. We may increase or decrease your Account credit line or your
Cash Advance credit line without notice. We may delay increasing your available
credit by the amount of any payment that we receive for up to 10 business days.

FEES (See your Pricing Schedule for Additional Fees)
Late Fee

We will not charge a Late Fee the first time you do not make the Minimum Payment
Due by the Payment Due Date. After that, if you do not pay the Minimum Payment
Due by the Payment Due Date, we will charge you a Late Fee. The fee is $29, if you

were not charged a Late Fee during any of the prior six billing periods. Otherwise,
the fee is $40. This fee will never exceed the Minimum Payment Due that was due
immediately prior to the date on which the fee was assessed.

Returned Payment Fee

If you make a payment that is not honored by your financial institution, we will
charge you a Returned Payment Fee even if the payment is honored after we resubmit it. The fee is $29 if you were not charged a Returned Payment Fee during

any of the prior six billing periods. Otherwise, the fee is $40. This fee will never
exceed the Minimum Payment Due that was due immediately prior to the date on
which the payment was returned to us

ANNUAL PERCENTAGE RATES (“APRs”) (See your Pricing Schedule for the APRs that apply to your Account)
Variable APRs

Your Pricing Schedule may include variable APRs. These APRs are determined by
adding the number of percentage points that we specify to the Prime Rate. Variable
APRs will increase or decrease when the Prime Rate changes. The APR change

Penalty APR

None

will take effect on the first day of the billing period that begins during the same
calendar month that the Prime Rate changes. An increase in the APR will increase
your interest charges and may increase your Minimum Payment Due.

MAKING PAYMENTS
Payment Instructions

• You must pay in U.S. dollars. Please do not send cash. Sending cash is not
allowed. All checks must be drawn on funds on deposit in the U.S.
• You must pay us for all amounts due on your Account. This includes charges made
by Authorized Users.
• We may refuse to accept a payment in a foreign currency. If we do accept it,
we will charge your Account our cost to convert it to U.S. dollars.
• We can accept late payments, partial payments or payments marked
“payment in full” or with any other restrictive endorsement without
losing any of our rights under this Agreement.

• We credit your payments in accordance with the terms contained on your
billing statement.
• If you mail your payment to an address other than the address designated on your
billing statement, there may be a delay in processing and crediting the payment
to your Account.
• If a third party makes a payment on your Account and we return all or a part of
such payment, then we may adjust your Account for any amount returned. We
reserve the right to defend ourselves against any demand to return funds we
have received, and may agree to a compromise of the demanded amount as part
of a settlement.

Minimum Payment Due

You may pay the entire New Balance shown on your billing statement at any
time. Each billing period you must pay at least the Minimum Payment Due by the
Payment Due Date shown on your billing statement. The Minimum Payment Due
will be any amount past due plus the greater of:
• $35; or
• 2% of the New Balance shown on your billing statement; or
• $20, plus any of the following charges as shown on your billing statement: fees

for any debt protection product that you enrolled in on or after 2/1/2015; Interest
Charges; and Late Fees.
The Minimum Payment Due may also include amounts by which you exceed
your Account credit line. However, it will never exceed the New Balance. When
we calculate the Minimum Payment Due, we may subtract from the New Balance
certain fees added to your Account during the billing period. The Minimum Payment
Due is rounded up to the nearest dollar.

©2021 Discover Bank, Member FDIC

-2-

MAKING PAYMENTS
How We Apply Payments

We apply payments and credits at our discretion, including in a manner most
favorable or convenient for us. In all cases, we will apply payments and credits as
required by applicable law.

Each billing period, we will generally apply amounts you pay that exceed the
Minimum Payment Due to balances with higher APRs before balances with lower
APRs as of the date we credit your payment.

How We Calculate Interest
Charges—Daily Balance
Method (including current
transactions)

We calculate interest charges each billing period by first figuring the “daily
balance” for each Transaction Category. Transaction Categories include standard
Purchases, standard Cash Advances and different promotional balances, such as
Balance Transfers.
How We Figure the Daily Balance for Each Transaction Category
• We start with the beginning balance for each day. The beginning balance for
the first day of the billing period is your balance on the last day of your previous
billing period.
• We add any interest charges accrued on the previous day’s daily balance and any
new transactions and fees. We add any new transactions or fees as of the later of
the Transaction Date or the first day of the billing period in which the transaction
or fee posted to your Account.
• We subtract any new credits and payments.

• We make other adjustments (including those adjustments required in the “Paying
Interest” section).
How We Figure Your Total Interest Charges
• We multiply the daily balance for each Transaction Category by its daily periodic
rate. We do this for each day in the billing period. This gives us the interest charges
for each Transaction Category. To get a daily periodic rate, we divide the APR that
applies to the Transaction Category by 365.
• We add up all the daily interest charges. The sum is the total interest charge for
the billing period.
How We Include Fees
We add Balance Transfer Fees to the applicable Balance Transfer Transaction
Category. We add Cash Advance Fees to the applicable Cash Advance Transaction
Category. We add all other fees to the standard Purchase Transaction Category.

Paying Interest

When Interest Charges Begin
We begin to impose interest charges on a transaction, fee or interest charge from
the day we add it to the daily balance. We continue to impose interest charges
until you pay the total amount you owe us. You can avoid paying interest on
Purchases as described below. However, you cannot avoid paying interest on
Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”)
If you pay the New Balance on your current billing statement by the Payment Due
Date shown on that billing statement, we will not impose interest charges on

New Purchases. New Purchases are Purchases that first appear on the next billing
statement. Interest will continue to accrue each day on Purchases that appeared on
previous billing statements until you pay the New Balance in full and will be billed
in the next billing cycle.
How We Apply Payments May Impact Your Grace Period
If you do not pay your New Balance in full each month, then, depending on the
balance to which we apply your payment, you may not get a grace period on
new Purchases.

INTEREST CHARGES

OTHER IMPORTANT INFORMATION
Default

You are in default if:
• you file bankruptcy or another insolvency proceeding is filed by you or against you;
• we have a reasonable belief that you are unable or unwilling to repay your
obligations to us;
• you die or are legally declared incompetent or incapacitated;

Collection Costs

If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable attorneys’ fees, court or other collection costs,
and fees and costs of any appeal.

Merchant Disputes

If you have a dispute with a merchant, you may request a credit to your Account. If we resolve the dispute in your favor, we will issue a credit to your Account. You assign to us
your claim for the credited amount against the merchant and/or any third party. At our request, you agree to provide this assignment in writing.

Automatic Account
Information Updates

You may set up automatic billing or store your Account information with an Affiliate,
merchant, wallet provider, or other third party (“Permitted Party”). If you do, you
authorize us to share your Account information, which may include your rewards
account balance, with the Permitted Party, regarding the use of your Account. If your

Account information changes, which may include your billing address, you authorize us
to provide this updated information to any such Permitted Party at our discretion. You
must contact the Permitted Party directly or remove your credit card information from
the Permitted Party website if you wish to stop automatic billing or Account updates.

Our Privacy Policy

We send you our Privacy Policy when you open your Account and annually.
Contact us or visit Discover.com if you would like a copy. Please read it carefully.
It summarizes:
• the personal information we collect;

• how we safeguard its confidentiality and security;
• when it may be shared with others; and
• how you can limit our sharing of this information.

Credit Reporting Agency
Information

You authorize us to get information from credit reporting agencies and other sources
for servicing or review of your Account, collection and any other use permitted by law,
including to consider you for other products and services. We may report the status and
payment history of your Account to credit reporting agencies and other creditors. We

normally report to credit reporting agencies each month. If you believe that information
we reported is inaccurate or incomplete, please write us at Discover, P.O. Box 30939,
Salt Lake City, UT 84130-0939. Please include your name, address, home phone number
and Account number.

Our Communications
with You

You agree that we, our Affiliates, and agents, including service providers (“Authorized
Parties”) may contact you, including calls, text message or email, about any current or
future accounts or applications, with respect to all products you have with us at any
phone number or email (i) you have provided to us, (ii) from which you contacted us,
or (iii) which we obtained and believe we can reach you at, even if your phone provider
may charge you message and data rates for calls or texts. You agree that the Authorized
Parties may record or monitor any calls between you and the Authorized Parties. You
agree to notify us if you change or discontinue using any phone number you provide.

You agree that the Authorized Parties may contact you using an automatic dialer or
pre-recorded voice message. If you no longer wish to be contacted on your cell phone
by an automated dialer or pre-recorded voice message, you must provide us written
notice cancelling your consent at this address: Discover Bank, P.O. Box 30937, Salt Lake
City, UT 84130-0937. The written notice must include: your name, mailing address,
the last four digits of your Account number and the specific cell phone number(s) for
which you would like to cancel your consent to be contacted by an automated dialer
or pre-recorded voice message.

Unauthorized Use

You must notify us immediately if:
• your Card is lost or stolen; or

• you believe someone is using your Account or a Card without your permission.
-3-

• you fail to comply with the terms of this Agreement or any Agreement with us or
an Affiliate, including failing to make a required payment when due, exceeding
your Account credit line or using your Card or Account for an illegal transaction.
If you are in default, we may declare the entire balance of your Account immediately
due and payable without notice.

Cancellation of
Your Account

• You may cancel your Account. You will remain responsible for any amount you
owe us under this Agreement.
• Any joint Accountholder may cancel a joint Account. However, both of you will
remain responsible for paying all amounts owed.

• We may cancel, suspend or not renew your Account at any time without notice.

OTHER IMPORTANT INFORMATION
Purchases and Cash Advances
in Foreign Currencies

If you make a Purchase or Cash Advance in a foreign currency, we will convert
it to U.S. dollars using a rate we choose. This rate will either be a governmentmandated rate, a government-published rate or the interbank exchange rate,

Governing Law

This Agreement is governed by applicable federal law and by Delaware law. However, in the event you default and we file a lawsuit to recover funds loaned to you, the
statute of limitations of the state where the lawsuit is filed will apply, without regard to that state’s conflicts of laws principles or its “borrowing statute.”

Severability

Except as set forth in the “Arbitration” section, if any part of this Agreement is found to be invalid, the rest of it will still remain in effect.

Enforcing this Agreement

We may delay enforcing or not enforce any of our rights under this Agreement without losing or waiving any of them.

Assignment of Account

We may sell, assign or transfer your Account or any portion of it without notice to you. You may not sell, assign or transfer your Account without first obtaining our prior
written consent.

depending on the country and currency in which the transaction is made. We
use the rate in effect on the conversion date for the transaction. This rate may
be different than the rate in effect on the Transaction Date for the transaction.

MILITARY BORROWERS
Statement of MAPR

Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an Annual Percentage Rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: (1) the costs associated with credit
insurance premiums; (2) fees for ancillary products sold in connection with the

Oral Disclosures

Before agreeing to this Agreement, in order to hear important disclosures and payment information about this Agreement, please call 1-844-DFS-4MIL (1-844-337-4645)
anytime 24/7. If calling outside the U.S. you can contact us at +1-801-451-3730.

credit transaction; (3) any application fee charged (other than certain application
fees for specified credit transactions or accounts); and (4) any participation fee
charged (other than certain participation fees for a credit card account). If you
would like more information about whether this section applies to you, please
contact us at 1-844-DFS-4MIL (1-844-337-4645) anytime 24/7. If calling outside
the U.S. you can contact us at +1-801-451-3730.

CONTACT US
Unless we tell you otherwise, you can notify us: • by phone at 1-800-347-3085 or • in writing to Discover, P.O. Box 30943, Salt Lake City, UT 84130-0943.
When writing, please include your name, address, home phone number and Account number. You must contact us within 15 days after changing your email address, mailing address or phone number.

DEFINITIONS
“Account” means your Discover card account.
“Affiliate” means our parent corporations, subsidiaries and affiliates.
“Authorized User” means any person you authorize to use your Account or a Card, whether you
notify us or not.
“Balance Transfer” means a balance transferred from another creditor to your Account.
“Card” means any one or more Discover cards issued to you or someone else with your authorization.
“Cash Advance” means the use of your Account for:
• obtaining cash from participating automated teller machines, financial institutions or other
locations; and
• online gambling, or to purchase lottery tickets, money orders, casino chips, foreign currency or
similar items.

“Check” means any check we send to you to access your Account.
“Pricing Schedule” means the document entitled, “Pricing Schedule,” which lists the APRs that
apply to your Account and other important information.
“Prime Rate” means the highest rate of interest listed as the U.S. Prime rate in the Money Rates
section of the online Wall Street Journal (www.wsj.com) on the last business day of the month.
“Purchase” means the use of your Account to purchase or lease goods or services at
participating merchants.
“We,” “us” and “our” refer to Discover Bank, the issuer of your Card.
“You,” “your” or “yours” refer to you and any other person(s) who are also contractually liable
under this Agreement.
“Transaction Date” means the date shown on your billing statement for a transaction or fee.

ARBITRATION
Agreement to Arbitrate. In the event of a dispute between you
and us arising out of or relating to this Account or the relationships
resulting from this Account or any other dispute between you or
us, including, for example, a dispute based on a federal or state
statute or local ordinance (“Claim”), either you or we may choose
to resolve the Claim by binding arbitration, as described below,
instead of in court. Any Claim (except for a Claim challenging the
validity or enforceability of this arbitration agreement, including
the Class Action Waiver) may be resolved by binding arbitration
if either side requests it. THIS MEANS IF EITHER YOU OR WE
CHOOSE ARBITRATION, NEITHER PARTY WILL HAVE THE RIGHT TO
LITIGATE SUCH CLAIM IN COURT OR TO HAVE A JURY TRIAL. ALSO
DISCOVERY AND APPEAL RIGHTS ARE LIMITED IN ARBITRATION.
Even if all parties have opted to litigate a Claim in court, you or
we may elect arbitration with respect to any Claim made by
a new party or any new Claims later asserted in that lawsuit.

This arbitration agreement does not apply if, on the date you
submit your Application or on the date we seek to invoke
this arbitration agreement, you are a member of the Armed
Forces or a dependent of such a member covered by the federal
Military Lending Act. If you would like more information
about whether you are covered by the Military Lending Act,
please contact us at 1-844-DFS-4MIL (1-844-337-4645) or
if you are calling from outside the U.S. at +1-801-451-3730.
CLASS ACTION WAIVER. ARBITRATION MUST BE ON AN
INDIVIDUAL BASIS. THIS MEANS NEITHER YOU NOR WE MAY
JOIN OR CONSOLIDATE CLAIMS IN ARBITRATION BY OR
AGAINST OTHER CARDMEMBERS, OR LITIGATE IN COURT OR
ARBITRATE ANY CLAIMS AS A REPRESENTATIVE OR MEMBER
OF A CLASS OR IN A PRIVATE ATTORNEY GENERAL CAPACITY.
The arbitrator may award injunctive relief only in favor of the
individual party seeking relief and only to the extent necessary
to provide relief warranted by that party’s individual Claim. The
arbitrator may not award class, representative or public injunctive
-4-

relief. If a court decides that applicable law precludes enforcement of
any of this paragraph’s limitations as to a particular Claim for relief,
then after all appeals from that decision have been exhausted, that
Claim (and only that Claim) must be severed from the arbitration and
may be brought in court. Only a court, and not an arbitrator, shall
determine the validity, scope, and effect of the Class Action Waiver.
Your Right to Go To Small Claims Court. We will not choose
to arbitrate any individual Claim you bring in small Claims court
or your state’s equivalent court. However, if such a Claim is
transferred, removed or appealed to a different court, we may
then choose to arbitrate.
Governing Law and Rules. This arbitration agreement is
governed by the Federal Arbitration Act (“FAA”). Arbitration must
proceed only with the American Arbitration Association (“AAA”).
The rules for the arbitration will be those in this arbitration
agreement and the procedures of the AAA, but the rules in this
arbitration agreement will be followed if there is disagreement

ARBITRATION
between the agreement and the AAA’s procedures. If the AAA’s
procedures change after the Claim is filed, the procedures in effect
when the Claim was filed will apply.
For a copy of the AAA’s procedures, to file a Claim or for other
information, please contact the AAA at 1101 Laurel Oak Rd.,
Voorhees, NJ 08043, www.adr.org (1-877-495-4185).
If the AAA is completely unavailable, and if you and we cannot
agree on a substitute, then either you or we may request that a
court with jurisdiction appoint a substitute
Fees and Costs. If you wish to begin arbitration against us but
you cannot afford to pay the AAA’s or arbitrator’s costs, we will
advance those costs if you ask us in writing. Any request like this
should be sent to Discover, P.O. Box 30421, Salt Lake City, UT
84130-0421. If you lose the arbitration, the arbitrator will decide
whether you must reimburse us for money we advanced for you
for the arbitration. If you win the arbitration, we will not ask for
reimbursement of money we advanced. Additionally, if you win the
arbitration, the arbitrator may decide that you are entitled to be
reimbursed your reasonable attorneys’ fees and costs (if actually
paid by you).
Hearings and Decisions. Arbitration hearings will take place in
the federal judicial district where you live. A single arbitrator will
be appointed. The arbitrator must:
• Follow all applicable substantive law, except when contradicted
by the FAA;
• Follow applicable statutes of limitations;
• Honor valid Claims of privilege;
• Issue a written decision including the reasons for the award.

The arbitrator’s decision will be final and binding except for any
review allowed by the FAA. However, if more than $100,000 was
genuinely in dispute, then either you or we may choose to appeal to
a new panel of three arbitrators. The appellate panel is completely
free to accept or reject the entire original award or any part of it.
The appeal must be filed with AAA not later than 30 days after
the original award issues. The appealing party pays all appellate
costs unless the appellate panel determines otherwise as part of
its award.
Claim Notice and Special Payment. If you have a Claim, before
initiating an arbitration proceeding, you may give us written notice
of the Claim (“Claim Notice”) at least 30 days before initiating the
arbitration proceeding. The Claim Notice must include your name,
address, and account number and explain in reasonable detail the
nature of the Claim and any supporting facts. Any Claim Notice shall
be sent to us at Discover, P.O. Box 794, Deerfield, IL 60015 (or such
other address as we shall subsequently provide to you). If, and only
if, (1) you submit a Claim Notice in accordance with this agreement
on your own behalf (and not on behalf of any other party); and (2)
an arbitrator, after finding in your favor in any respect on the merits
of your Claim, issues you an award that (excluding any arbitration
fees or attorneys’ fees and costs awarded by the arbitrator) is
greater than the value of Discover’s last written settlement offer
made before an arbitrator was selected, then you will be entitled to
the amount of the award or $7,500, whichever is greater. If you are
entitled to the $7,500, you will receive in addition any arbitration
fees or attorneys’ fees and costs awarded by the arbitrator.
Any arbitration award may be enforced (such as through a
judgment) in any court with jurisdiction.

Your Billing Rights:
Keep This Document For Future Use

Other Beneficiaries of this Agreement. In addition to you and
us, the rights and duties described in this arbitration agreement
apply to: our Affiliates and our and their officers, directors and
employees; any third party co-defendant of a Claim subject to this
arbitration agreement; and all joint Accountholders and Authorized
Users of your Account(s).
Survival of this Agreement. This arbitration agreement shall
survive:
• closing of your Account;
• voluntary payment of your Account or any part of it;
• any legal proceedings to collect money you owe;
• any bankruptcy by you; and
• any sale by us of your Account.
You Have the Right to Reject Arbitration for this Account.
You may reject the arbitration agreement but only if we
receive from you a written notice of rejection within
30 days of your receipt of the Card after your Account is
opened. You must send the notice of rejection to: Discover,
P.O. Box 30938, Salt Lake City, UT 84130-0938. Your rejection
notice must include your name, address, phone number, Account
number and personal signature. No one else may sign the rejection
notice for you. Your rejection notice must not be sent with any
other correspondence. Rejection of arbitration will not affect
your other rights or responsibilities under this Agreement. If
you reject arbitration, neither you nor we will be subject to the
arbitration agreement for this Account. Rejection of arbitration
for this Account will not constitute rejection of any prior or future
arbitration agreement between you and us.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think
you owe.

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Discover
P.O. Box 30421
Salt Lake City, UT 84130-0421.
You may also contact us on the Web: https://discover.com/billingerrornotice

If you receive our explanation but still believe your bill is wrong, you must write to us (or visit
https://discover.com/billingerrornotice) within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.

In your letter or on the Web, please give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.

You must contact us:
• Within 60 days after the error appeared on your statement.
• By 5:00 P.M. ET on the date an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong. You must notify us of any potential errors in writing or electronically. You
may call us, but if you do we are not necessarily required to investigate any potential errors and you
may have to pay the amount in question.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)

What Will Happen After We Receive Your Letter or Web Submission

2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.

When we receive your written or electronic notice, we must do two things:
1. Within 30 days of receiving your notice, we must tell you that we received it. We will also tell you if
we have already corrected the error.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
or electronically at:

2. Within 90 days of receiving your notice, we must either correct the error or explain to you why we
believe the bill is correct.

Discover
P.O. Box 30945
Salt Lake City, UT 84130-0945
https://discover.com/billingerrornotice

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may continue to appear on your statement.
• While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your credit limit.

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.

-5-

